UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




              Audit of the Archiving
                  of Case Files


                     OIG-AMR-43-04-03




                                        September 2004
INSPECTOR GENERAL




       NATIONAL LABOR RELATIONS BOARD
                           WASHINGTON, DC 20570

September 20, 2004

I hereby submit a Review of the Archiving of Case Files, Report No. OIG-AMR-
43-04-03. This review was conducted to determine the adequacy of the
Agency’s record retention policy and practices for case files and ascertain
whether the policy was implemented as designed.

The National Labor Relations Board (NLRB or Agency) case files contain all
documents relating to the Agency’s investigation of and actions taken in
response to charges of unfair labor practices and petitions for representation
elections. The Docket Section in each Regional Office and the Case Records
Unit in the Library and Administrative Services Branch, Records Management
Section are responsible for the establishment, maintenance, and disposition of
all official case files. Case files must be returned to the Docket Section or Case
Records Unit when not being actively used. The Agency processes
approximately 29,000 unfair labor practice cases and 5,000 representation
cases each year. Approximately 2 percent of these cases result in Board
decisions. When a case is forwarded to the Board, a separate file is
established.

Three of four Regional Offices reviewed generally transferred case files to the
Federal Records Centers (FRC) for temporary storage in accordance with the
NLRB Records Retention Schedules. We physically verified that these records
were at the FRC and we also verified the existence of files maintained in these
Regional Offices. Both Region 19 and the Case Records Unit did not transfer a
significant number of files to the FRC in accordance with the NLRB Records
Disposition Schedules and could not locate many case files that should have
been in their custody.

The Case Records Unit and three of the four Regional Offices did not select all
of certain types of representation case files for permanent storage as required
by the NLRB Files Management and Records Disposition Handbook. Also, the
Agency did not forward a significant number of case files selected for
permanent retention to the FRC and forwarded other case files that were not
selected for permanent retention.
The Agency did not perform several required administrative functions. The
Agency did not identify vital records and develop a plan to protect them.
Record Liaison Officers were not provided required training. Also, the Agency
entered into an interagency agreement without determining whether the
services could be performed as conveniently or as cheaply by a commercial
enterprise, and did not verify cost information on monthly invoices.

Regional Offices generally did not maintain electronic records in a manner and
location that would facilitate their reconstruction if the hard-copy records were
destroyed by a natural or man-made disaster.

An exit conference was held on August 10, 2004 with representatives of the
Library and Administrative Services Branch. A draft report was sent to the
Library and Administrative Services Branch Chief and the Records
Management Section Chief on August 13, 2004 for review and comment. The
Director of Administration, who provided the official response to the draft
report, had no comments with respect to the findings and agreed with most of
the recommendations. Corrective actions on two recommendations made in
our draft report have already been implemented and management's response
identified the initiating of corrective actions on several other recommendations.

The Director disagreed with two recommendations to use the Case Activity
Tracking System to select and document case files transferred to the Federal
Records Centers for storage, preferring to use the Integrated Records and
Information Management System. Determining which system to use is within
management’s discretion and we changed these two recommendations.

She initially disagreed with our recommendation to coordinate with the Acting
Chief Information Officer to review user accounts and remove fictitious
accounts because this appears to be an information technology security issue
rather than a records management issue. After discussing this further,
management agreed with the recommendation and stated that they had
already begun to confer with the Agency's Information Technology Security
Chief. Management's comments are presented in their entirety as an appendix
to this report.



                                     Jane E. Altenhofen
                                     Inspector General




                                        2
                                        TABLE OF CONTENTS

BACKGROUND ......................................................................................1
OBJECTIVES, SCOPE, AND METHODOLOGY ........................................2
FINDINGS ..............................................................................................3
ARCHIVING AND MAINTENANCE OF CASE FILES .................................3
  Regional Offices...................................................................................3
  Case Records Unit ...............................................................................4
  Methodology for Identifying and Documenting Records ........................5
  Permanent Records .............................................................................6
ADMINISTRATIVE FUNCTIONS ..............................................................7
  Vital Records .......................................................................................7
  Training ..............................................................................................7
  Interagency Agreements ......................................................................7
  Invoice Review .....................................................................................8
ELECTRONIC FILES ..............................................................................8
MANAGEMENT’S COMMENTS AND OIG RESPONSE..............................9
RECOMMENDATIONS..........................................................................10
ATTACHMENT .....................................................................................12
APPENDIX
        Memorandum from the Director of Administration, Comments on
        Draft Audit Report - "Audit of the Archiving of Case Files," dated
        September 13, 2004
                                 BACKGROUND

The National Labor Relations Board (NLRB or Agency) administers the principal
labor relations law of the United States, the National Labor Relations Act
(NLRA) of 1935, as amended. The NLRA is generally applied to all enterprises
engaged in interstate commerce, including the United States Postal Service, but
excluding other governmental entities as well as the railroad and the airline
industries. The Fiscal Year (FY) 2004 appropriation authorizes 1,952 full-time
equivalents that were located at Headquarters, 52 field offices throughout the
country, and 3 satellite offices for Administrative Law Judges. NLRB received
an appropriation of $244,073,000 for FY 2004, less an across-the-board
reduction of .59 percent, leaving a net spending ceiling of $242,633,000.

The NLRB case files contain all documents relating to the Agency’s
investigation of and actions taken in response to charges of unfair labor
practices and petitions for representation elections. The Docket Section in
each Regional Office and the Case Records Unit in the Library and
Administrative Services Branch, Records Management Section are responsible
for the establishment, maintenance, and disposition of all official case files.
Case files must be returned to the Docket Section or Case Records Unit when
not being actively used. The Agency processes approximately 29,000 unfair
labor practice cases (C cases) and 5,000 representation cases (R cases) each
year. Approximately 2 percent of these cases result in Board decisions. When
a case is forwarded to the Board, a separate file is established.

Official case files are closed on notification of final action by the Regional
Director, Board, or court. Regional Offices and Headquarters case files are
maintained on-site for 2 years after the calendar year in which they were
closed. Thereafter, they are sent to the local Federal Records Center (FRC)
where they are available for retrieval for 4 years. The case files are destroyed 6
years after the calendar year in which they were closed.

A small percentage of case files are sent to the National Archives and Records
Administration (NARA) for permanent retention. The initial nominations for
files to be sent to NARA come from Regional Directors and are sent to the
Records Officer, who directs the Records Management Section. The Records
Officer forwards the lists, together with a list compiled at Headquarters, to the
Records Committee for approval. These case files are selected by a committee
chaired by the Division of Advice Research and Policy Planning Branch
Assistant General Counsel, and representatives from the Division of
Operations-Management, Office of Executive Secretary, and the Division of
Information. The Records Committee is responsible for technical review and
final selection of historical NLRB cases. Approximately 260 cases were
transferred to the FRC for permanent retention in 2004.


                                        1
                OBJECTIVES, SCOPE, AND METHODOLOGY

This review was conducted to determine the adequacy of the Agency’s record
retention policy and practices for case files and ascertain whether the policy
was implemented as designed.

We reviewed applicable sections of the Code of Federal Regulations (CFR) to
identify records management and related training requirements. We also
reviewed the NARA General Records Schedules and guidance regarding vital
records disaster mitigation and recovery and government-wide criteria for
continuity of operations.

We reviewed the NLRB Files Management and Records Disposition Handbook,
NLRB Administrative Policies and Procedures Manual, and applicable
administrative policy circulars (APCs), Operations-Management memorandum,
and administrative bulletins to identify Agency policies and procedures
regarding the records program. We interviewed Agency officials at
Headquarters and in Regional Offices to gain an understanding of the records
program, clarify the Agency's implementation of policies, and gain an
understanding of the case file life cycle. We also obtained information
regarding electronic file maintenance and records training.

We reviewed the guidelines for interagency agreements detailed in the Economy
Act, we reviewed the Agency’s interagency agreement, and controls over the
payment of monthly invoices for the period between January 2003 and June
2004. We verified the accuracy of inventories used as a basis of storage
charges at the FRCs for all boxes related to the Regions and a statistical
sample of Case Records Unit boxes.

For each Regional Office and the Case Records Unit at Headquarters we
selected statistical samples to determine whether case files were transmitted to
FRCs in accordance with the Agency's records retention schedule and whether
files that records indicated were in the offices' custody could be located. For
each item in the sample tested at the FRCs we determined whether the entire
box of records agreed with the applicable SF-135, Records Transmittal and
Receipt Form.

This audit was performed in accordance with generally accepted government
auditing standards during the period of March 2004 through September 2004.
We conducted this audit at NLRB Headquarters and Regions as follows: Region
3 - Buffalo; Region 9 - Cincinnati; Region 17 - Overland Park; and Region 19 -
Seattle. We also visited the related FRCs in Lee's Summit, Missouri; Dayton,
Ohio; Kansas City, Kansas; Seattle, Washington; and Suitland, Maryland.




                                        2
                                   FINDINGS

Both Region 19 and the Case Records Unit did not transfer a significant
number of case files to the FRC in accordance with the NLRB Records
Disposition Schedules and could not locate many case files that should have
been in their custody.

The Case Records Unit and three of the four Regional Offices did not select all
of certain types of representation cases for permanent storage as required by
the NLRB Files Management and Records Disposition Handbook. Also, the
Case Records Unit did not forward a significant number of case files selected
for permanent retention to the FRC and forwarded other case files that were
not selected.

The Agency did not perform several required administrative functions. The
Agency did not identify vital records and develop a plan to protect them.
Record Liaison Officers were not provided required training. Also, the Agency
entered into an interagency agreement without determining whether the
services could be performed as conveniently or as cheaply by a commercial
enterprise, and did not verify cost information on monthly invoices.

Regional Offices generally did not maintain electronic records in a manner and
location that would facilitate their reconstruction if the hard-copy records were
destroyed by a natural or man-made disaster.


ARCHIVING AND MAINTENANCE OF CASE FILES

Regional Offices

Three of the four Regional Offices generally transferred case files to the FRC in
accordance with the NLRB Records Retention Schedules, and we physically
verified the existence of these files. Region 19 did not timely transfer a
significant number, approximately 10 percent, of case files to the FRC and
could not locate many cases for our review. Complete results of testing of
Regional Office files appear as an appendix to this report.

We provided Operations-Management with a list of 17 case files that Region 19
could not provide for our review. Operations-Management reported that most
of the missing files are accounted for. They stated that four files were found in
a cabinet, five files were belatedly sent to the Federal Records Center, and two
cases were transferred to other Regions. The files that are still missing were
assigned to two employees located outside of the Regional Office and
apparently lost. Operations-Management stated that they are working with the
Regional Director on the systems for handling case files.

                                        3
Cases Closed in 1999 and 2000

Case files were transmitted to FRCs for temporary storage in accordance with
the NLRB Records Disposition Schedule for three of the four Regions. We
verified the existence of each of these files at the related FRC. A significant
number of Region 19 case files were not transmitted in accordance with the
NLRB Records Retention Schedule. For Region 19, 7 of 77 (9 percent) C case
and 6 of 59 (10 percent) of R case files were not included on the SF- 135 as
being transmitted to the FRC and were also not located in the Regional Office.
Region 19 could not account for these files.

The NLRB Files Management and Records Disposition Handbook states that
case files are to be maintained in the Regional Office for 2 years after the
calendar year in which the case closed, then transferred to a FRC.

Cases Closed in 2001

Two Regional Offices generally completed the transfer of case files to the
appropriate FRC in accordance with the NLRB Records Disposition Schedules,
and Region 17 demonstrated that they were in the process of doing so. In
Region 19, seven C case files and one R case file were not transferred to the
FRC in accordance with the NLRB Records Disposition Schedules.

In Region 3, one C case file was not transferred to the FRC but was found in
the file room, and another C case file was not found. Operations-Management
stated that this file was lost in transit from the Resident Office to the Regional
Office and that the Regional Director has already instituted a procedure for
tracking cases when they are sent between the offices.

Cases Closed Between January 1, 2002 and April 5, 2004

Except for one out of 604 case files tested, case files were maintained in the
Regional Offices in accordance with Agency policy. We physically verified the
existence of the files. Operations-Management stated that it appears that the
missing file was not checked out of the Region’s file system in accordance with
the Region’s check-in and checkout procedures. Operations-Management
noted that the Regional Director conducted a staff meeting with all employees
to reinforce the requirements for checking out case files and distributed those
written procedures to all employees.

Case Records Unit




                                         4
The Case Records Unit did not transfer a significant number of Board case files
to the FRC in accordance with the NLRB Records Disposition Schedules and
did not locate many files that should have been in their custody.

             Cases Closed October 1, 1999 – December 31, 2001

                                             Not Properly
             Case Type       Sample Size      Processed        Percent
             C cases            77                47             61
             R cases            75                23             31

Of the 47 C case files that were not sent to the FRC timely, 28 could not be
located, 16 were in the Case Records Unit, 2 were recorded in CATS as being
closed in a later year, and 1 was charged out.

Of the 23 R case files that were not sent to the Federal Records Center timely,
19 were in the Case Records Unit, 3 were not located, and 1 was charged out.

                Cases Closed January 1, 2002 – April 4, 2004

             Dates              Sample Size      File Found     Percent
             C and R cases         76                 71          93

Five files that should have been in the possession of the Case Records Unit
were not provided for our review because they could not be located. C cases
and R cases were tested together because we anticipated the results of both
types of cases to be similar.

Methodology for Identifying and Documenting Records

Offices prepared the SF-135 using several different techniques. The offices
performing the task most accurately, Regions 3, 9, and 17, utilized either
reports provided by Case Activity Tracking System (CATS) or a manual log of
cases to identify and document files sent to records centers. The two least
accurate offices, Region 19 and the Case Records Unit used some form of
physical method to identify and document case files to be transmitted to a
Federal Records Center for temporary storage.

Region 19 physically went through filing cabinets, manually pulled case files
that were closed in the year to be submitted, and then created a list of those
cases. The Case Records Unit is supposed to be informed by either a Board
decision or a Closed Case Report from the Regional Office that a case is closed.
Upon receiving either of these documents, they physically transfer the case
from the file location with pending files, to the file location for closed cases. At
the end of the year an inventory was hand written then typed for these cases.

                                         5
Neither of these methods provides reasonable assurances that the universe of
case files for which they are responsible is handled appropriately. In addition
to these methodologies being less accurate, they consume more staff time than
relying on a readily available report.

The Case Records Unit said that they were in the process of obtaining access to
CATS, which should provide a tool to increase accuracy and efficiency.

Permanent Records

The Case Records Unit and three of four Regional Offices did not select all
amendment of certification, unit clarification, and union deauthorization cases
for permanent storage as required by the NLRB Files Management and Records
Disposition Handbook. We identified 221 of these types of cases that were
transferred to the FRC as temporary records. The Handbook contained
inconsistencies. Chapter 6 of the Handbook required that all of these cases be
transferred for permanent retention, but Appendix I did not identify these
cases. Case Records Unit employees disagreed on what the current practice is
and noted that some Regions transmit all of these types of cases and other
Regions do not. Management stated that they were in the process of updating
the Handbook and that this issue would be clarified.

In addition, the Case Records Unit did not forward 80 of 483 (17 percent) case
files selected for permanent retention to the FRC. Also, the Case Records Unit
forwarded at least 72 case files in 2000 and 2001 to the FRC for permanent
retention that were not on the list of case files selected for permanent retention.
These cases were related to other cases that were selected for permanent
retention. The Case Records Unit said that some Regions submit these related
case files for permanent retention and some do not. The current policy does
not state whether related case files should be submitted.

The NLRB Files Management and Records Disposition Handbook outlines the
criteria, responsibility for selection of cases, and the procedure for transferring
selected case files to Washington. Case files selected for permanent retention
are forwarded to the Case Records Unit annually. The case files are then
forwarded to the FRC in Suitland, Maryland where they remain in the legal
custody of the Agency until their transfer to the National Archives.




                         Transfer of Cases Selected for
                             Permanent Retention

                               Selected for          Not Transferred

                                         6
         Year           Permanent Retention            to FRC         Percent
         1999                  142                       17             12
         2000                  160                       27             17
         2001                  181                       36             20
        TOTAL                  483                       80             16


ADMINISTRATIVE FUNCTIONS

The Agency did not perform several required administrative functions. The
Agency did not identify vital records and develop a plan to protect them.
Record Liaison Officers were not provided required training. Also, the Agency
entered into an interagency agreement without determining whether the
services could be performed as conveniently or as cheaply by a commercial
enterprise, and did not verify cost information on monthly invoices.

Vital Records

The Agency did not identify vital records or develop a plan to protect these
records. These are needed to respond to emergencies or disasters that may
damage an agency’s records and provide for the recovery of needed information.
According to the Federal Preparedness Circular 65, Federal Executive Branch
Continuity of Operations, agencies’ plans should account for identification and
protection of vital records systems, and data management software and
equipment, to include classified or sensitive data as applicable, necessary to
perform essential functions, and to reconstitute normal agency operations after
the emergency.

Training

Regional Office Records Liaison Officers did not receive required training. The
CFR states that agencies are responsible for ensuring that adequate training is
provided to all agency personnel on policies, responsibilities, and techniques
for the implementation of record keeping requirements and the distinction
between records and non-record materials, regardless of media, including those
materials created by individuals using computers to send or receive electronic
mail. On April 28, 2004, the Records Management Section began a series of
workshops on Records Management and the Privacy Act. This workshop
provided valuable information to Headquarters staff. A second workshop is
scheduled for August 11, 2004.
Interagency Agreements

The Agency entered into an interagency agreement with NARA for records
center storage and services without determining whether the services could be
performed as conveniently or as cheaply by a commercial enterprise.

                                      7
According to the Economy Act, the head of an agency or major organizational
unit within an agency may place an order with a major organizational unit
within the same agency or another agency for goods or services if certain
requirements are met, including making the determinations identified above.
The FY 2004 appropriated amount for these services was $56,450.56.

The Records Officer stated that the evaluation was likely not performed
because until recently the Agency was required to use the FRCs. This change
went into effect on October 1, 2002. The Records Officer noted that since
agencies are now permitted to contract with commercial records facilities, more
Agencies, including the NLRB, will likely take a closer look at using commercial
facilities for records storage services.

Invoice Review

The Records Officer did not verify cost information on monthly invoices. The
procedure used to evaluate invoices consists of comparing the current month's
charges to prior months to determine if there was a significant change. In
addition to being charged for storage, which the Records Officer keeps no
independent record of, charges are assessed for items such as document
destruction, retrieval, and return. NARA invoices the Agency monthly for
services rendered. Approximately half of the charges were for storage and the
other half were for other related services.

Federal Acquisition Regulations state that acceptance constitutes
acknowledgement that the supplies or services conform with applicable
contract quality and quantity requirements. Acceptance is the responsibility of
the Contracting Officer or a cognizant contract administration office. Regional
Offices stated that it is feasible to confirm charges incurred in their offices and
report this to the Records Officer.

ELECTRONIC FILES

Regional Offices generally did not maintain electronic records in a manner and
location that would facilitate their reconstruction if the hard-copy records were
destroyed by a natural or man-made disaster. APC 03-03, Guidance for Using
NLRB Information Technology Resources, states that users should store data
on the appropriate network drive to take advantage of the additional security
measures, as well as automatic back up and recovery processes.
Region 3 was the only Regional Office that endeavored to maintain well-
organized case related documents on the network in a manner that would
facilitate easy retrieval. Of fifty cases tested, 18 (36 percent) electronic case
folders contained all documents created by the Region. Another 18 (36
percent) electronic folders contained some electronic documents created by the
Region. Thirteen (26 percent) hard-copy files did not have a related electronic

                                         8
file on the network, and one hard copy file in our sample was not located.
Even though a majority of the case files sampled did not have the ability to be
recreated electronically, the Regional Office has taken significant steps to
ensure that case file documents are maintained electronically and can be more
easily retrieved.

The Region 3 system for file maintenance includes creating an electronic folder
for each case on the network. The folder name is the case number. The folder
and related files are available to anyone on the network, and the network is
backed up regularly.

In Region 9, some personnel save their documents to the network, while others
save documents to their office hard drive. Those few that used the network
drive did not have documents organized in any particular order. In Region 17
one employee maintained case files on the network in a well-organized manner.

In Region 19 most documents were stored on employee hard drives and not on
the network. In addition, members in the office often shared passwords in
order to retrieve documents from hard-drives of employees who were out of the
office. APC 03-03 specifically states that Users "should not disclose your
password to anyone, except, in the rare circumstances necessary in the
performance of your official duties." If these documents were stored on the
network in an organized manner employees could have accessed these
documents without sharing passwords.

In addition to employees sharing passwords, Region 19, with the assistance of
Help Desk contractors, established a fictitious user name and provided several
employees and volunteers with the user name and password. Region 19
officials said that this was done to allow employees the ability to log on to the
network using computers other than the one assigned to them. This is
necessary, they claimed, to allow clerical staff that rotate at the receptionist
desk to have access to the network. Other offices had this functionality
without setting up a fictitious user.

This user identification and password were also provided to volunteers utilized
through a program with the AARP. Region 19 officials said that the Agency
would not provide the volunteers with a user account of their own. With this
fictitious user account the volunteers have access to the network, but their
activity cannot be monitored.

MANAGEMENT’S COMMENTS AND OIG RESPONSE

The Director of Administration provided the official response to our draft
report. She disagreed with two recommendations to utilize CATS to identify
and document cases selected to be sent to Federal Records Centers, preferring

                                        9
instead to use the Information Management System. Which system to use is
within management’s discretion and we changed these two recommendations
accordingly.

She also disagreed with our recommendation to coordinate with the Acting
Chief Information Officer to review user accounts and remove fictitious
accounts because this appears to be an information technology security issue
rather than a records management issue. After discussing this issue further,
management agreed with the recommendation and stated that they had begun
to confer with the Agency's Information Technology Security Chief.

Management's response stated that they decided with Operations-Management
that not all amendment of certification, unit clarification, and union
deauthorization case files will be considered for permanent retention. We,
therefore, eliminated the two related recommendations.


                            RECOMMENDATIONS

We recommend that the Library and Administrative Services Branch Chief:

1.   Coordinate with the Division of Operations-Management to develop
     standard operating procedures to utilize an information system to select
     and document case files transferred to the Federal Records Center for
     storage.

2.   Develop standard operating procedures to utilize an information system
     to identify and document Case Records Unit case files for transfer to the
     Federal Records Center.

3.   Develop controls to ensure that inventories of permanent records are
     accurate.

4.   Issue instruction to Regional Offices to not submit all related case files
     for permanent retention.

5.   Identify vital records and develop a plan to protect them.

6.   Provide Regional Office Records Liaison Officers with required training
     and develop a plan to provide such training to employees assigned these
     responsibilities in the future.

7.   Perform analyses to determine whether records services provided by
     NARA could be performed as conveniently or cheaply by a commercial
     enterprise.

                                       10
8.    Develop procedures to adequately review monthly invoices.

9.    Coordinate with Operations-Management to develop standard operating
      procedures regarding the maintenance of electronic records in a manner
      that would facilitate their reconstruction and use if hard-copy records
      were destroyed.

10.   Coordinate with the Acting Chief Information Officer to review user
      accounts and remove fictitious accounts including the one identified in
      Region 19.




                                      11
                                                         ATTACHMENT

                      REGIONAL OFFICE RESULTS

                       Unfair Labor Practice Cases
            Cases Closed October 1, 1999 – December 31, 2000

                                        Processed
                     Sample Size         Properly         Percent
Region 3                 77                 77              100
Region 9                 77                 77              100
Region 17                76                 76              100
Region 19                77                 70               91
   Total                307                300              98

                          Representation Cases
            Cases Closed October 1, 1999 – December 31, 2000

                                        Processed
                     Sample Size         Properly         Percent
Region 3                 59                 59              100
Region 9                 60                 60              100
Region 17                57                 57              100
Region 19                59                 53               90
   Total                235                229              97

                       Unfair Labor Practice Cases
            Cases Closed January 1, 2001 – December 31, 2001

                                        Processed
                     Sample Size         Properly       Percentage
Region 3                 76                 74              95
Region 9                 77                 77             100
Region 17                76                 76             100
Region 19                76                 69              91
   Total                305                296              97




                                   12
                          Representation Cases
            Cases Closed January 1, 2001 – December 31, 2001

                                         Processed
                     Sample Size          Properly           Percent
Region 3                 57                  57                100
Region 9                 58                  58                100
Region 17                56                  56                100
Region 19                58                  57                 99
   Total                229                 228                99

                      Unfair Labor Practice Cases
              Cases Closed January 1, 2002 – April 5, 2004

                     Sample Size        File Located         Percent
Region 3                 77                   76                99
Region 9                 78                   78               100
Region 17                77                   77               100
Region 19                77                   77               100
   TOTAL                309                  308               99

                         Representation Cases
              Cases Closed January 1, 2002 – April 5, 2004

                     Sample Size        File Located         Percent
Region 3                 74                   74               100
Region 9                 73                   73               100
Region 17                73                   73               100
Region 19                75                   75               100
   TOTAL                295                  295               100




                                   13
APPENDIX
UNITED STATES GOVERNMENT
National Labor Relations Board
Division of Administration
Memorandum




                                            September 13, 2004

TO:   Jane E. Altenhofen
      Inspector General

FROM: Gloria J. Joseph /s/
      Director of Administration

SUBJECT: Comments on Draft Audit Report – “Audit of the Archiving of Case Files”

This is in response to your memorandum dated August 13, 2004, in which you requested
comments on the draft audit report on the archiving of case files. In your memo, you requested
that we also indicate our agreement or disagreement with each of the report’s findings and
recommendations.

We have reviewed the report and have no comments with respect to the findings of the report.


Our comments regarding the report’s recommendations are as follows:

1. Coordinate with the Division of Operations-Management to develop standard operating
procedures to utilize CATS to select and document case files transferred to the Federal
Records Center for storage.

We disagree with this recommendation to utilize CATS for selecting and documenting case files
transferred to the Federal Records Center for storage. The NLRB currently uses a Certified
Records Management Application, i.e., Integrated Records and Information Management System
(iRIMS) to support the Agency’s Records Management requirements. This product was certified
by the Department of Defense, 5015.2-STD, Design Criteria Standard for Electronic Records
Management Software Applications. The National Archives and Records Administration
(NARA) endorses the DoD 5015.2-STD as meeting compliance requirements for managing
Federal records. The iRIMS solution is specifically designed to manage records, both electronic
and textual records transferred to record centers for storage.

Standard Operating Procedures (SOPs) are currently being developed to utilize iRIMS to select
and document case files transferred to the Federal Records Center (FRC) for storage.
Page Two
Jane Altenhofen



2. Develop standard operating procedures to utilize CATS to identify and document Case
Records Unit case files for transfer to the Federal Records Center.

We disagree with the recommendation. As with recommendation #1, Standard Operating
Procedures (SOPs) are currently being developed to utilize iRIMS, the system used by the
NLRB to support the Agency’s Records Management Program, to identify and document case
files for transfer to the Federal Records Center. (See response to recommendation #1).

3. Coordinate with program offices to determine whether all amendment of certification,
unit clarification, and union deauthorization case files must be transferred to the Case
Records Unit for permanent retention.

In agreement with the Division of Operations-Management, not all amendment of certification,
unit clarification, and union deauthorization case files will be considered for permanent
retention. Instead, we will continue to apply records retention standard
803-02(a), in Appendix-1 of the Files Management and Records Disposition Handbook, which
approves the selection of between 1 and 3 percent of all NLRB Case files for permanent
retention. It has been recommended that the procedural guidance in the Files Management and
Records Disposition Handbook be revised to be consistent with approved records retention
schedules contained in Appendix-1. We are currently revising this handbook with a scheduled
completion date of September 30, 2005.

4. If all amendment of certification, unit clarification, and union deauthorization case files
are to be selected for permanent retention, retrieve those that are in temporary storage and
place them in permanent retention.

Based on the response to recommendation #3, we no longer consider this a viable
recommendation.

5. Develop controls to ensure that inventories of permanent records are accurate.

We agree with this recommendation. Beginning October 1, 2004, inventories of permanent
records will be developed using scan guns to capture and input information into iRIMS.
Applying this information technology will ensure that accurate inventories are developed and
maintained in an automated format.

6. Determine whether related case files should be submitted with those identified for
permanent retention and promulgate related instructions.




                                               2
Page three
Jane Altenhofen



In agreement with the Division of Operations-Management, only related cases meeting selection
criteria and approved for nomination by the Regional Director should be considered for
permanent retention by the Records Committee.

The Case Records Unit (CRU) will not accept related cases that do not meet the selection criteria
or are not approved for nomination by the Regional Director for permanent retention.

A guidance memorandum to the Regional Offices is being prepared with instructions to purge all
related cases not meeting the above requirement before sending to the CRU for processing.

7. Identify vital records and develop a plan to protect them.

We agree with this recommendation. A definition of Vital Records will be provided to Agency
managers and these managers will be requested to identify their vital records, consistent with the
definition provided. We will also request that managers provide a list of their vital records for
review and validation and will determine the volume, medium, use, maintenance, and update
requirements. This information, along with a plan to protect such records, will be incorporated
into the overall Vital Records Plan to be published in FY 2005.

8. Provide Regional Office Records Liaison Officers with required training and develop a
plan to provide such training to employees assigned these responsibilities in the future.

Beginning October 2004, Records Management Training Workshops will be conducted for all
Regional Office Records Liaison Officers via videoconferencing. New employees hired as
Records Liaison Officers, or those appointed to the position, will be trained within 2 months of
notification of their appointment

9. Perform analyses to determine whether records services provided by NARA could be
performed as conveniently or cheaply by a commercial enterprise.

We agree with this recommendation. Research is currently underway of other vendors, and the
FY 2005 agreement will take into consideration this research.

10. Develop procedures to adequately review monthly invoices.

We agree with this recommendation. Procedures are being developed to include requesting
monthly status reports from those Field offices using Federal Record Centers.




                                                3
Page Three
Jane Altenhofen



The reports should be submitted to the Agency’s Records Management Officer by the fifth
workday of each succeeding month and should include copies of Standard Form (SF) 135,
Records Transmittal and Receipt Form, and a brief narrative of other records management
services provided by the servicing records center during the reporting month. The Records
Officer will analyze data received from the field, validate charges listed on NARA invoice, and
approve or disapprove as appropriate.

11. Coordinate with Operations-Management to develop standard operating procedures
regarding the maintenance of electronic records in a manner that would facilitate their
reconstruction and use if hard-copy records were destroyed.

We agree with this recommendation. Records Management staff met with staff from both the
Division of Operations-Management and the Office of Information Technology to discuss
developing electronic folders for storage of case-related information. Based on a joint decision,
Field offices will be advised of the new procedure to establish electronic folders. Establishing
electronic folders will facilitate reconstruction of case-related information if the paper copy has
been otherwise destroyed.

12. Coordinate with the Acting Chief Information Officer to review user accounts and
remove fictitious accounts including the one identified in Region 19.

This does not appear to be a records management issue, but one involving IT security. We
recommend that the Inspector General refer this recommendation to the Acting CIO for action.

Thank you for the opportunity to comment on the draft report. If you have any questions, please
contact me.


cc: The Board
    General Counsel
    Rick Siegel, Associate General Counsel
    Dave Parker, Acting CIO
    Vanita Reynolds, Chief, Library and Administrative Services Branch




                                                 4
